No. 20-1523

IN THE SUPREME COURT OF THE UNITED STATES

 

ROLANDO CRUZ, JR.,
MARC HERNANDEZ,
and ROSCOE VILLEGA, Petitioners
v.

UNITED STATES OF AMERICA, Respondent

 

PROOF OF SERVICE
I hereby certify that a true and correct copy of the foregoing Brief In Support
Of Petitioners Rolando Cruz, Jr., Marc Hernandez, and Roscoe Villega’s Petition For
Writ Of Certiorari to the United States Supreme Court was served on each party to
the above proceeding or that party’s counsel and mailed thisSday of May, 2021, to the
following:

AUSA Micheal A. Consiglio,
United States Attorney’s Office,
228 Walnut St., PO Box 11754,

Harrisburg, PA 17108

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

/s/ John F. Yaninek

John F. Yaninek
Counsel for Respondent,
Maurice Atkinson
